CERTIFICATE OF SERVICE
No. TBD
Phillippe Buhannic
Petitioner(s)
v.
New York Southern District Federal Court
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Philippe
Buhannic Petition for Extraordinary Writ, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Judge Edgardo Ramos
US District Court, SDNY
40 Foley Square
New York, NY 10007
(212) 805-0294
Respondent
Laurie E. Foster
Morgan, Lewis & Brockius LLP
101 Park Avenue
New York, NY 10178
(212) 309-6885
Counsel for Related Party TradingScreen Inc.

Judge Marcy Friedman
New York Supreme Court, Manhattan
60 Center Street
New York, NY 10007
(646) 386-3600
Related Party Marcy Friedman

Lucas “DeDeus

December 13, 2019
SCP Tracking: Buhannic-65 Central Park West, Unit 17 A-Cover White

